--;-                                                       .                                                         -            -   -
                     ..
                        .          .
                                                                                           .
       .'I
                                           .           .                    .                                                                                                                                                                 .;.:::               ,                 .
        i:.::
                              ,.           ;.                                          .
                                                                  . . . . . . . . . .I <
                                                                                     .. . . . ..
                                                                                                                                                                      .                                                          ... >. . .
                                                                                                                                                                                                                                  . '. !
                                                                                                                                                                                                                                                                   :
                   ?I'.'    . . ... . .. . .;                                                                                                                                                                                     . . . . ..
       .,
                                               .
                 . . . .. . .. ,.. :.-. ".. . ~ .                 'I   .(
                                                                        '                      ...
                                                                                               .I
                                                                                                      ...
                                                                                                       <
                                                                                                                                                                                                                                 .          .




                                                                                                     w a m t . N S F taking further action regarding the subject. ; OIG :decided,to close the case
         . . .. . . . . .                                                        ,
                                                                                                     because, even:ifthe subject had committed additional qistxnduot, the~voluntary
                                                                                                                                                                              . . . . .

           .>...... . .
         ...
         , .: .
                                                                                                    .&cl@ion                 was        to        NSP,s inte& . . . . . . .         :, .' .
                                                                                                                                                                                                                            .
                                                                                                                                                                                                                                                                                                            :,             '   ,
                                                                                                                                                                                                                 . .,
               .: . . . .
             .:.,.
                                                                                                                          , : . . .. . .. . . . .                                                                   . .,:s<,,;.,
                                                                                                                                                                                                                       :I( '
                                                                                                                                                                                                                                          .
                                                                                                                                                                                                                                              ;,.,.. . . ,:. . ..,:..,:
                                                                                                                                                                                                                                                                   . .. . .                             .   .          .           .
       ..:.  ...       : .                                                                                                                                                                                   ,     .     .,.                  ..
         .;.                  .
       ,.:;            ..:<                    .
       *-.., . .
            ,.:. . ::. ..
       !:g?.,
       "II, .I..
                       ?..,
                      ... :'
                                                       '5.
                                                           . ..
                                                                            .
                                                                                :.         .        ; . .   .,.   .': ~hisin~~j.isdosedandnofuahera&willbe$ke~ontbiscase.
                                                                                                                  . , , .. . . . .
                                                                                                                          . .
                                                                                                                                          .   .   .: .! . . .
                                                                                                                                                      . >..
                                                                                                                                                          . . .
                                                                                                                                                           . . . . .
                                                                                                                                                                     :... ....
                                                                                                                                                                            ;.: ;> .
                                                                                                                                                                                     ...
                                                                                                                                                                                     .,.,
                                                                                                                                                                                        .>..   .+A       .        . . .                                                 ................
                                                                                                                                                                                                                                                                               . .                               !..-, .               -.r   .   :.
       .xq%:
         1
         !323

       :*,:;
            <..3
                       .-
                .:.1,. . ...
                                                       .
                                                                                     . .              1 ; .
                                                                                                     , .-
                                                                                                              .    i.:,

                                                                                                     cc: Deputy 'Assistant
                                                                                                                              .                                   .                 .     .
                                                                                                                                                                          General;,Oversight;
                                                                                                                                                                                                     .
                                                                                                                                                                                                                                                            .r.

                                                                                                                                                                                                                                                                           df     ..<

                                                                                                                                                                                                                                                                            ,General,
                              .: .                 .                                                                                                                                                                                          .             . .
                                                                                                     Oversight; IG
                                                                                                                                                                                                                                                       ,,                      3 .
        .?.
       . ;:... ... ...
                   ..                                                                                                                                 .       .                                                         .             .                                              ,,             .
                                                                                                                                                                                                                       .,;,:*.                     .
                                                                                                                                                          '

                               ir                                                                                                                                                                                                '"
                                                                                                                                                                                                                               .                                                         ...
        ,
         . .. :.. .. :.,                                                                                                                                                                                                 ,..,,..
                                                                                                                                                                                                                           ,i?. .                            ,
        .,r....'.,,. .                 '                                                                                                                                                                                    .             .                                     .                       ,
          . .,.., . . .                                                                                                       .       .       .                                                                                                    .               ..                      .,
                                                                                                                                                                                                                                                        .         ,.




                                                                                                                                                                                                                                                                           .         .          .




                                                                                                                                                                            page 1 of 1                                                                                                                                    M96-27
